APPENDIX
1

29

Case: 19-20443

Document: 00515577522

Page: 1

Date Filed: 09/24/2020

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

September 24, 2020

Mr. David J. Bradley
Southern District of Texas, Houston
United States District Court
515 Rusk Street
Room 5300
Houston, TX 77002
No. 19-20443

Olen Ware, II v. Bobby Lumpkin, Director
USDC No. 4:18-CV-3398

Dear Mr. Bradley,
Enclosed is a copy of the judgment issued as the mandate.

Sincerely,
LYLE W. CAYCE, Clerk
By: __________ __________________
Shawn D. Henderson, Deputy Clerk
504-310-7668
cc w/encl:
Mr. Craig William Cosper
Mr. Olen Ware II

Case: 19-20443

Document: 00515577523

Page: 1

Date Filed: 09/24/2020

®ntteb States Court of glppeals
for tfje jftftfj Circuit
No. 19-20443

A True Copy
Certified order issued Sep 24, 2020

UJ, OtMjUi
Clerk, U.S. Court of Appeals, Fifth Circuit

Olen Ware, II,

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-3398

ORDER
Olen Ware, II, Texas prisoner # 1867874, is serving a 60-year sentence
for felony murder. He moves for a certificate of appealability (COA) to appeal
the district court’s denial of his 28 U.S.C. § 2254 petition on the merits. In
his motion, Ware challenges the adjudication of his claims of ineffective
assistance of counsel, trial court errors, and prosecutorial misconduct. He
also challenges the denial of his motion for leave to file a third amended
§ 2254 petition. And he requests appointment of counsel on appeal.
Ware contends that the district court should have held that he
received ineffective assistance of counsel at trial and on appeal. He claims

Case: 19-20443

Document: 00515577523

Page: 2

Date Filed: 09/24/2020

No. 19-20443

that his trial counsel was ineffective by failing to (1) prepare for the
suppression hearing; (2) present at that hearing an episode of “The First 48 ”
depicting Ware’s case; (3) challenge the validity of the search warrant for lack
of verification; (4) argue that Ware did not receive or sign any paperwork
advising him of his Miranda rights; (5) reserve the right to make an opening
statement in the punishment phase; (6) convey all plea bargain offers to
Ware; (7) request funds to conduct an independent ballistics examination;
(8) object to a “misrepresentation” of the facts made by the prosecutor; and
(9) object to the fact that two alternate jurors entered the deliberation room.
Ware claims that his appellate counsel was ineffective by failing to (1)
challenge the sufficiency of the evidence; (2) timely notify Ware that his
petition for discretionary review was refused; (3) challenge the denial of the
motion to suppress; and (4) raise any nonfrivolous issues on appeal.
Ware also contends that the district court should have held that the
trial court abused its discretion by (1) denying his motion to suppress;
(2) denying counsel’s motion for a mistrial after the alternate jurors entered
the deliberation room; and (3) admitting crime scene photographs into
evidence. Finally, Ware contends that the district court should have held that
the prosecutor committed unconstitutional misconduct by offering a
favorable plea deal to his co-defendant and creating an incentive for the co­
defendant to implicate Ware.
To obtain a COA, Ware must make a substantial showing of the denial
of a constitutional right. See 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537
U.S. 322, 327 (2003). To meet that standard, a movant must demonstrate
that “reasonable jurists could debate whether . . . the petition should have
been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further. ” Slack v. McDaniel,
529 U.S. 473, 483-84 (2000) (quotation omitted). Ware has not made the
requisite showing.

2

Case: 19-20443

Document: 00515577523

Page: 3

Date Filed: 09/24/2020

No. 19-20443

Accordingly, Ware’s motion for a COA and his motion for
appointment of counsel are DENIED.

Andrew S. Oldham
United States Circuit Judge

3

APPENDIX
2

30

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 1 of 15
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
OLEN WARE, II,
Petitioner,
v.

LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§

June 21,2019
David J. Bradley, Clerk

CIVIL ACTION NO. H-18-3398

MEMORANDUM OPINION AND ORDER
Petitioner, a state inmate proceeding pro se, filed this section 2254 habeas petition
challenging his conviction and sixty-year sentence for murder. Respondent filed a motion
for summary judgment (Docket Entry No. 16) on April 22, 2019, and served a copy of the
motion on petitioner at his address of record that same date. Despite expiration of a
reasonable period of time of sixty days, petitioner has failed to respond to the motion for
summary judgment and the motion is uncontested.
Based on consideration of the pleadings, the motion, the record, and the applicable
law, the Court GRANTS the motion for summ ary judgment and DISMISSES this case for
the reasons shown below.
I. BACKGROUND AND CLAIMS
A jury found petitioner guilty of murder in Harris County, Texas, and assessed
punishment at sixty years’ incarceration on Jur e 21,2013. The conviction was affirmed on

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 2 of 15

appeal. Ware v. State, No. 01-13-00545-CR, 2014 WL 4952432 (Tex. App.—Houston [1st
Dist.] Oct. 2, 2014, pet. ref d). The Texas Ccurt of Criminal Appeals refused petitioner’s
petition for discretionary review (“PDR”) on January 14, 2015, and denied his application
for state habeas relief on September 19, 2018. Petitioner filed the instant federal habeas
petition on or about September 21,2018.
Petitioner raises the following grounds for federal habeas relief:
1.

Trial counsel provided ineffective assistance.

2.

Appellate counsel rendered ineffective assistance in:

3.

4.

a.

failing to challenge the sufficiency of the evidence;

b.

failing to notify him timely that his PDR was refused;

c.

failing to challenge in the PDR the denial of his motion to
suppress; and

d.

raising only one, frivolous claim on appeal.

The trial court erred in:
a.

denying his motion to suppress;

b.

denying his motion for mistrial; and

c.

overruling his objections to the admission of unauthenticated
crime scene photos.

The State committed prosecutorial misconduct by suggesting to the jury
that his co-defendant had not received a deal in exchange for his
testimony.

2

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 3 of 15

Respondent argues that these claims are without merit and should be summarily
dismissed.
II. FACTUAL BACKGROUND
The intermediate state court of appeals s et forth the following statement of facts in its
opinion affirming petitioner’s conviction:
Peggy Ariza and her son, Edward Hernandez, were involved with the sale of
marijuana out of Ariza’s home. Appellant, along with three other men, went
to Ariza’s home with the intent of robbing her and Hernandez. Once at the
home, Appellant shot and killed Ariza The jury found Appellant guilty of
felony murder.
When the punishment phase of the trial began, the State did not make an
opening statement. It re-offered all of :he evidence that it had offered in the
guilt-innocence phase and called seven witnesses to testify.
After the State rested, Appellant requested to make an opening statement
before presenting his punishment evidence. The trial court denied Appellant’s
request to make an opening statement. Appellant presented two witnesses
during the punishment phase: himself and his mother.
The testimony of Appellant’s mother, Cheryl, indicated that Appellant had
been a well-behaved child and a good student while growing up. Cheryl’s
testimony also indicated that Appellant was raised in a stable home with a
supportive family. She testified that Appellant had been working and
attending college before he committed the offense.
Cheryl stated that she noticed a change in Appellant in 2011. She testified
that, at that time, Appellant found out th at his girlfriend had aborted a baby of
which Appellant was the father.
Cheryl stated that this had made Appellant very angry. At the end of her
testimony, Cheryl testified that she and the family would be there to support
Appellant when he was released from prison.

3

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 4 of 15

In his testimony, Appellant admitted to shooting and killing Ariza during the
failed robbery. He apologized to complainant’s family and expressed remorse
for what he had done. Appellant also admitted that he had frequently smoked
marijuana during the time period preceding the commission of the offense. He
also admitted that he had participated in a burglary in the months following the
complainant’s murder.
Appellant testified that he had been in jail since his arrest and that he had not
gotten into trouble while incarcerated. Appellant also stated that he plans to
become certified for different trades while in prison so that he can find a job
when released and “live a normal life.”
At the close of evidence, the State and Appellant each presented a closing
argument to the jury regarding punishment, summing up the evidence
presented during the punishment phase.
During her closing remarks, Appellant’s counsel reminded the jury that
Appellant was only 22 years old and asked the jury “to give [Appellant] a
sentence where he will have a meaningf j1 life.” The jury assessed Appellant’s
punishment at 60 years in prison.
Ware, 2014 WL 4952432, at *1.
III. THE APPLICABLE LEGAL STANDARDS
A.

Habeas Review

This petition is governed by the applicable provisions of the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA). 28 U .S.C. § 2254. Under the AEDPA,
federal habeas relief cannot be granted on legal issues adjudicated on the merits in state court
unless the state adjudication was contrary to clearly established federal law as determined by
the Supreme Court, or involved an unreasonable application of clearly established federal law
as determined by the Supreme Court. Harrington v. Richter, 562 U.S. 86, 98-99 (2011);

4

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 5 of 15

Williams v. Taylor, 529 U.S. 362,404-05 (2000); 28 U.S.C. §§ 2254(d)(1), (2). A state court
decision is contrary to federal precedent if it ap plies a rule that contradicts the governing law
set forth by the Supreme Court, or if it confronts a set of facts that are materially
indistinguishable from such a decision and arrives at a result different from the Supreme
Court’s precedent. Early v. Packer, 537 U.S. 3, 7-8 (2002).
A state court unreasonably applies Supreme Court precedent if it unreasonably applies
the correct legal rule to the facts of a particular case, or unreasonably extends a legal
principle from Supreme Court precedent to a new context where it should not apply, or
unreasonably refuses to extend that principle to a new context where it should apply.
Williams, 529 U.S. at 409. In deciding whether a state court’s application was unreasonable,
this Court considers whether the application was objectively unreasonable. Id. at 411. “It
bears repeating that even a strong case for relief does not mean the state court’s contrary
conclusion was unreasonable.” Richter, 562 U.S. at 102. As stated by the Supreme Court
in Richter,
If this standard is difficult to meet, that is because it was meant to be. As
amended by AEDPA, § 2254(d) stops short of imposing a complete bar on
federal court relitigation of claims already rejected in state proceedings. It
preserves authority to issue the writ in cases where there is no possibility
fairminded jurists could disagree that the state court’s decision conflicts with
this Court’s precedents. It goes no farther. Section 2254(d) reflects the view
that habeas corpus is a ‘guard against extreme malfunctions in the state
criminal justice systems,’ not a substitute for ordinary error correction through
appeal.
Id., at 102-03 (emphasis added; internal citations omitted).
5

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 6 of 15

The AEDPA affords deference to a stale court’s resolution of factual issues. Under
28 U.S.C. § 2254(d)(2), a decision adjudicated on the merits in a state court and based on a
factual determination will not be overturned on factual grounds unless it is objectively
unreasonable in light of the evidence presented in the state court proceeding. Miller-El v.
Cockrell, 537 U.S. 322, 343 (2003). A federal habeas court must presume the underlying
factual determination of the state court to be correct, unless the petitioner rebuts the
presumption of correctness by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); see
also Miller-El, 537 U.S. at 330-31.
B.

Summary Judgment

In deciding a motion for summary judgment, the district court must determine whether
the pleadings, discovery materials, and the summary judgment evidence show that there is
no genuine issue as to any material fact and that the moving party is entitled to judgment as
a matter of law. Fed. R. Civ. P. 56(c). Once the movant presents a properly supported
motion for summary judgment, the burden shifts to the nonmovant to show with significant
probative evidence the existence of a genuine issue of material fact. Hamilton v. Segue
Software, Inc., 232 F.3d 473, 477 (5th Cir. 2000).
While summary judgment rules apply w ith equal force in a section 2254 proceeding,
the rules only apply to the extent that they do not conflict with the federal rules governing
habeas proceedings. Therefore, section 2254(e)(1), which mandates that a state court’s
findings are to be presumed correct, overrides the summary judgment rule that all disputed
6

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 7 of 15

facts must be construed in the light most favorable to the nonmovant. Accordingly, unless
a petitioner can rebut the presumption of correctness of a state court’s factual findings by
clear and convincing evidence, the state court’s findings must be accepted as correct by the
federal habeas court. Smith v. Cockrell, 311 F.3d 661, 668 (5th Cir. 2002), overruled on
other grounds by Tennard v. Dretke, 542 U.S. 274 (2004).
IV. INEFFECTIVE ASSISTANCE OF COUNSEL
The Sixth Amendment to the United States Constitution guarantees a criminal
defendant the right to the effective assistance of counsel. U.S. Const, amend. VI. A federal
habeas corpus petitioner’s claim that he was denied effective assistance of counsel is
measured by the standards set out in Strickland v. Washington, 466 U.S. 668 (1984). To
assert a successful ineffectiveness claim, a petitioner must establish both constitutionally
deficient performance by counsel and actual prejudice as a result of counsel’s deficient
performance. Id. at 687. The failure to demonstrate either deficient performance or actual
prejudice is fatal to an ineffective assistance claim. Green v. Johnson, 160 F.3d 1029, 1035
(5th Cir. 1998).
A counsel’s performance is deficient if it falls below an objective standard of
reasonableness. Strickland, 466 U.S. at 688. In determining whether counsel’s performance
was deficient, judicial scrutiny must be highly deferential, with a strong presumption in favor
of finding that trial counsel rendered adequate assistance and that the challenged conduct was
the product of a reasoned trial strategy. Westv. Johnson, 92 F.3d 1385,1400 (5th Cir. 1996).
7

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 8 of 15

To overcome this presumption, a petitioner must identify the acts or omissions of counsel
that are alleged not to have been the result of reasonable professional judgment. Wilkerson
v. Collins, 950 F.2d 1054, 1065 (5th Cir. 1992). However, a mere error by counsel, even if
professionally unreasonable, does not warrant setting aside the judgment of a criminal
proceeding if the error had no effect on the judgment. Strickland, 466 U.S. at 691.
Actual prejudice from a deficiency is shown if there is a reasonable probability that,
but for counsel’s unprofessional error, the result ofthe proceeding would have been different.
Id. at 694. To determine prejudice, the question focuses on whether counsel’s deficient
performance renders the result of the trial unrel iable or the proceeding fundamentally unfair.
Lockhart v. Fretwell, 506 U.S. 364, 372 (199:1)- In that regard, unreliability or unfairness
does not result if the ineffectiveness does not deprive the petitioner of any substantive or
procedural right to which he is entitled. Id.
A.

Trial Counsel

Respondent correctly argues in the motion for summary judgment that petitioner has
not presented any grounds for ineffective assistance of trial counsel. In his paragraph
regarding ineffective assistance of trial counsel, petitioner complains of the trial court’s
rulings. Although petitioner raised eight grounds for ineffective assistance of trial counsel
in his application for state habeas relief, he did not bring these grounds forward in his
original, first amended, or second amended federal habeas petitions.

8

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 9 of 15

Because petitioner does not allege any grounds for ineffective assistance of trial
counsel, habeas relief for ineffective assistance of trial counsel is unwarranted.
B.

Appellate Counsel

Counsel’s performance on appeal is measured by the same metrics as apply to trial
counsel. A petitioner must demonstrate a reasonable probability that, had appellate counsel’s
performance not been deficient in the manner claimed, the appellate court would have
vacated or reversed the trial court judgment based on the alleged error. Briseno v. Cockrell,
274 F.3d 204,210 (5th Cir. 2001). Moreover, it is well established that appellate counsel is
not ineffective for failing to present frivolous or legally meritless arguments on appeal.
Williams v. Collins, 16 F.3d 626, 635 (5th Cir. 1994). Appellate counsel “need not (and
should not) raise every non-frivolous claim, but rather may select from among them in order
to maximize the likelihood of success on appeal.” Smith v. Robbins, 528 U.S. 259, 288
(2000).

Petitioner claims that appellate counsel was ineffective in (a) failing to challenge the
sufficiency of the evidence, (b) failing to notify him timely that his PDR was refused, (c)
failing to complain in the PDR that the appellate court erroneously denied his motion to
suppress, and (d) raising only one, frivolous claim on appeal. These claims have no merit.

‘Even assuming petitioner had re-urged the specific grounds for ineffective assistance of
trial counsel raised in his state habeas application, the grounds are conclusory and unsupported in
the record for purposes of AEDPA review. Petitioner fails to show that the state court’s
determination was contrary to, or involved an unreasonable application of, Strickland or was an
unreasonable determination of the facts based on the evidence in the record.
9

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 10 of 15

Petitioner’s complaints as to counsel’s conduct regarding the PDR lack merit, as he
fails to show that, but for counsel’s alleged eiTors, discretionary review would have been
granted. Moreover, petitioner has no constitutional entitlement to counsel for purposes of
discretionary review; consequently, he has no entitlement to the effective assistance of
counsel for such purposes. Thus, no constitutional violation is presented.
Likewise, petitioner’s complaint that counsel raised only one, frivolous claim on
appeal fails to establish that, but for counsel’s conduct, he would have prevailed on appeal.
To prevail on his claim, petitioner must set foith a meritorious issue that appellate counsel
failed to raise. Although petitioner complains that appellate counsel failed to challenge the
sufficiency of the evidence, he does not establish that he would have prevailed on appeal.
Under Jackson v. Virginia, 443 U.S. 307, 319 (1979), petitioner must show that, after
viewing the evidence in the light most favorable to the prosecution, no rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt. Petitioner’s
disagreements with the jury’s verdict, and his reliance on conflicting evidence and credibility
disputes, do not meet his burdens of proof under Jackson, Strickland, and AEDPA. Habeas
relief is unwarranted.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, Strickland or was an unreasonable determination
of the facts based on the evidence in the record. Respondent is entitled to summary judgment
dismissal of petitioner’s claims for ineffective assistance of appellate counsel.
10

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 11 of 15

V. TRIAL COURT ERROR
A.

Motion to Suppress

Petitioner contends that the trial court’s denial of his motion to suppress violated his
constitutional rights. In support, he argues that he never acknowledged or waived his
Miranda rights in writing.
Petitioner’s argument is without merit, as a waiver or acknowledgment of a criminal
defendant’s rights under Miranda need not be in writing. See North Carolina v. Butler, 441
U.S. 369,373 (1979). Where “the prosecution shows that a Miranda warning was given and
that it was understood by the accused, an accused’s uncoerced statement establishes an
implied waiver of the right to remain silent.” Berghuis v. Thompkins, 560 U.S. 370, 384
(2010).

The State was not constitutionally required to obtain petitioner’s waiver in writing,
and the lack of a written waiver did not require the trial court to suppress his statements at
trial. No constitutional violation is shown, and habeas relief is unwarranted.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, federal law or was an unreasonable determination
of the facts based on the evidence in the record. Respondent is entitled to summary judgment
dismissal of this habeas claim.

11

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 12 of 15

B.

Motion for Mistrial

Petitioner further contends that the trial court violated his constitutional rights by
denying his motion for mistrial after two alternate jurors were allowed in the jury room
during punishment deliberations.
The validity of petitioner’s underlying factual allegations are rebutted by the state
court record. As indicated by the trial court in the record, the two alternate jurors were
accidently allowed in the jury room following the guilty verdict but before punishment
deliberations commenced. 7 RR 219. The trial judge noted that the duration of their
presence was brief and that the jurors were instructed not to discuss the case. Id. The
alternate jurors indicated that they did not discuss the case while in the room with the other
jurors. 7 RR 72-74. Petitioner moved for a mistrial based on the alternate jurors’ presence
in the jury room, but the trial court overruled the motion.
It is clear from the record that the alternate jurors played no part in the determination
of petitioner’s sentence, and petitioner’s allegations to the contrary are conclusory and
unsupported. No harm or error of a federal constitutional dimension is shown. See United
States v. Kelly, 875 F.3d 781, 785 (5th Cir. 2317) (“An alternate’s mere presence during
deliberations is not the sort of inherently prejudicial error that requires per se reversal.”).
Habeas relief is unwarranted.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, federal law or was an unreasonable determination
12

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 13 of 15

of the facts based on the evidence in the record. Respondent is entitled to summary judgment
dismissal of petitioner’s claim.
C.

Crime Scene Photos

Petitioner next argues that the trial court erred by overruling his objections to the
admission of unauthenticated crime scene photos.
Challenges to rulings based on state evidentiary rules or state law are not cognizable
on federal habeas corpus review. Wood v. Quarterman, 503 F.3d 408,414 (5th Cir. 2007).
A state court’s evidentiary rulings present cognizable habeas claims “only if they run afoul
of a specific constitutional right or render the petitioner’s trial fundamentally unfair.”
Johnson v. Puckett, 176 F.3d 809, 820 (5th Cir. 1999).
Moreover, on federal habeas review of slate court convictions, a federal harmless error
standard applies. Brecht v. Abrahamson, 507 U.S. 619, 637-38 (1993); see also Fry v.
Pliler, 551 U.S. 112, 121 (2007) (holding that the Brecht standard applies in section 2254
proceedings). Consequently, to be actionable, a trial court error must have “had substantial
and injurious effect or influence in determining the jury’s verdict.” Brecht, 507 U.S. at 637.
Even assuming the photographs were improperly admitted under state law, petitioner
fails to argue, much less establish, that he was harmed by the admission of the photographs,
and his burden of proof under Brecht is not met. Habeas relief is unwarranted.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, federal law or was an unreasonable determination
13

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 14 of 15

of the facts based on the evidence in the record. Respondent is entitled to summary judgment
dismissal of petitioner’s claim.
VI. PROSECUTORIAL MISCONDUCT
Petitioner contends that his co-defendant, Hector Mejia, had a “deal” with the State
because Mejia received only a twenty-five year sentence after pleading guilty to aggravated
robbery. He argues that the State committed prosecutorial misconduct by misleading the jury
into believing that there was no such deal.
The state court record refutes petitioner’s underlying factual allegations. Mejia
testified for the State at trial. The State elicited Mejia’s testimony that he was in custody for
capital murder as petitioner’s co-defendant, but that he pleaded guilty to a lesser offense of
aggravated robbery with an agreement to testify at petitioner’s trial. 5 RR 6-7, 51. Mejia
acknowledged that he faced the full range of punishment for aggravated robbery, which
could be up to life imprisonment. Id., at 7. He specifically stated that the State made no
promises as to the sentence he would receive, but he hoped the judge would be lenient. Id.,
at 8,51. On cross-examination, Mejia clarified that he had pleaded guilty the day before and
that by making the deal he no longer faced the death penalty or a life sentence without the
possibility of parole. Id., at 27-28.
Thus, the jury was fully informed that Mejia had made an agreement with the State
to plead guilty to aggravated robbery, and that he had agreed to testify at petitioner’s trial.
The jury also heard Mejia’s testimony that there was no agreed sentence. The state court
14

Case 4:18-cv-03398 Document 21 Filed on 06/20/19 in TXSD Page 15 of 15

record is devoid of any evidence of a sentencing agreement between Mejia and the State, and
petitioner’s allegations to the contrary are conclusory and unsupported in the record. The
fact that Mejia received a twenty-five year sentence for aggravated robbery while petitioner
received a sixty-year sentence for felony murdsr is not proof that Mejia had an undisclosed
“deal.” No prosecutorial misconduct is establi shed, and habeas relief is unwarranted.
Petitioner fails to show that the state court’s determination was contrary to, or
involved an unreasonable application of, federal law or was an unreasonable determination
of the facts based on the evidence in the record. Respondent is entitled to summary judgment
dismissal of petitioner’s claim of prosecutoria l misconduct.
VII. CONCLUSION
Respondent’s motion for summary judgment (Docket Entry No. 16) is GRANTED
and this lawsuit is DISMISSED WITH PREJUDICE. Any and all pending motions are
DENIED AS MOOT. A certificate of appealability is DENIED.
■*=^^day of June, 2019.
SIGNED at Houston, Texas, on this the

KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

If

APPENDIX
3

31

Case: 19-20443

Document: 00515679993

Page: 1

Date Filed: 12/21/2020

tHmteb States Court of Appeals:
for tfjc Jftftfj Circuit
No. 19-20443
Olen Ware, II
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division
Respondent—Appellee.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-3398
ON MOTION FOR RECONSIDERATION
AND REHEARING EN BANC
Before Higginbotham, Smith, and Oldham, Circuit Judges.
Per Curiam:
(X) The Motion for Reconsideration is DENIED and no member of this
panel nor judge in regular active service on the court having requested
that the court be polled on Rehearing En Banc, (Fed. R. App. P.
and 5th Cir. R. 35) the Petition for Rehearing En Banc is also
DENIED.

Case: 19-20443

Document: 00515679993

Page: 2

Date Filed: 12/21/2020

19-20443

() The Motion for Reconsideration is DENIED and the court having been
polled at the request of one of the members of the court and a majority
of the judges who are in regular active service and not disqualified not
having voted in favor, (Fed. R. App. P. and5THCiR. R. 35) the
Petition for Rehearing En Banc is also DENIED.
() A member of the court in active service having requested a poll on the
reconsideration of this cause En Banc, and a majority of the judges in
active service and not disqualified not having voted in favor,
Rehearing En Banc is DENIED.

2

Additional material
from this filing is
available in the
Clerk's Office.

